NO,

21- Zc>!
IN THE
J-

■J*A.

SUPREME COURT OF THE UNITED STATES

PASTOR MARIO L. SIMS,
Petitioner,

v.

BANK OF NEW YORK
Respondent

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Seventh Circuit

PETITION FOR WRIT OF CERTIORARI

Pastor Mario L. Sims (pro se)
23778 Grove Street
South Bend, Indiana, 46628
(574) 298-0110
Email: mariolsims@gmail.com
-V

MS 3 0 20?|
-Uu^Pf-THE

QUESTION PRESENTED

a*

Whether the conduct of the 7th Circuit Court of Appeals was so outrageous
that due process principles would absolutely bar the anonymous three judge panel’s
ability to issue an Opinion and sanction a Plaintiff when the facts and/or evidence
were not grounded in reality.
The American judicial system has historically been open to the public and
the U.S. Supreme Court has continually affirmed the presumption of openness.
When the anonymous panel of the 7th Circuit Court of Appeals operated in
secrecy it ran counter to the very principles of openness and becomes a slippery
slope of judicial tyranny. This is a case of first impression.

n.

11

TABLE OF CONTENTS
Page
QUESTION PRESENTED

11

TABLE OF CONTENTS

.111

TABLE OF AUTHORITIES

IV

PETITION FOR WRIT OF CERTIORARI

1

DECISIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AMENDMENT INVOLVED

2

STATEMENT OF THE CASE

3

I. This is of exceptional importance as the April 28th anonymous panel
decision to uphold the District Court, by creating facts and evidence, that
does not exist and the decision of the 14 judges that refused to grant rehearing
enbanc, are in conflict with the First Amendment to the United States
Constitution which guarantees a cherished freedom—the right to speak openly
and freely. (U S- Const., 1st Amend. [“Congress shall make no law ... abridging the
freedom of speech.. .*[.)
II.
The Model Code of Judicial Conduct requires this Court to intervene to
perserve both the integrity and the public perception of the judicial system.
REASONS FOR GRANTING THE WRIT

%

11

The Court should Grant the Certiorari to protect the public perception
and integrity of the judicial system where in this case the judicial
process was cloaked in secrecy and which handed down an Order based
on non existent facts and evidence created by an anonymous
7th Circuit Court of Appeals panel.
CONCLUSION

19

in

INDEX TO APPENDICES
APPENDIX A- April 28, 2021, “Order” United States Court of Appeals for the Seventh Circuit
APPENDIX B- April 28, 2021, Order to Show Cause, United States Court of Appeals for the
Seventh Circuit
APPENDIX C- May 28, 2021, Order denying petition for rehearing and for rehearing en banc
United States Court of Appeals for the Seventh Circuit

APPENDIX D- June 2, 2021, Order awarding $13,450.00 in attorney fees, United States Court
of Appeals for the Seventh Circuit
APPENDIX E- October 23, 2021, “Opinion and Order,” U.S. District Court, Northern District
of Indiana, South Bend Division.
APPENDIX F- January 24, 2020, “Order Granting Motion,” U.S. Bankruptcy Court, Northern
District of Indiana.

-V

IV

TABLE OF AUTHORITIES
Page
Olmstead v. United States, 277 U.S. 438 (1928) (Brandeis, J., dissenting)

2

United States v. Calandra, 414 U.S. 338 (1973) (Brennan, J., dissenting)

2

Casey v. United States, 276 U.S. 413 (1928) (Brandeis, J., dissenting)

2

Constitution
Amendment I, Constitution of the United States

2

Statute
28 U.S.C. § 1254(1)

1

Other Authorities

THE MODEL CODE OF JUDICIAL CONDUCT

2

Independence, Impartiality, and Integrity By Jeffrey M. Sharman
Inter-American Development Bank Washington, D.C. Sustainable
Development Department State, Governance and Civil Society Division
Judicial Reform Roundtable II May 19-22,1996.......................................

2

v

PETITION FOR WRIT OF CERTIORARI
Petitioner Pastor Mario L. Sims respectfully requests the issuance of a writ
of certiorari to review the judgment and sanction of the United States Court of
Appeals for the Seventh Circuit.

DECISION BELOW
The decision of the United States Court of Appeals for the Seventh Circuit is
published at Mario Lamont Sims v. Bank ofNew York, No. 20-3158 (7th Cir. 2021)
and is reproduced at Pet. App.la.

JURISDICTION
The Seventh Circuit entered its anonymous Order on April 28, 2021 and
ordered Pastor Mario Sims to Show cause why he should not be
sanctioned. See Pet. App. A
The Seventh Circuit denied Pastor Sims Petition for Rehearing and Petition
for Rehearing Enbanc on May 28, 2021. See Pet. App. B
The Seventh Circuit granted the bank’s bill of costs June 3, 2021. See Pet.
App. C
This Court’s jurisdiction is invoked under 28 U.S.C. § 1254(1).

1

CONSTITUTIONAL AMENDMENT INVOLVED
The U.S. Constitutions First Amendment, which guarantees a cherished
freedom-the right to speak freely and openly, was intended to insure free and
open discussion of government affairs and to foster extensive public scrutiny
of the government. When Judges, tasked with deciding an appeal become angered
when the appellant supports his argument of judicial racism with articles written
by mainstream media about racism in the judiciary, should not retaliate by creating
non existence facts and evidence to rule against and sanction.
Judicial conduct is certainly a matter of public concern, as is the
operation of a judicial conduct. The concept of judicial integrity may be described
as the role of the judiciary in leading by example. A court can invalidate or rectify
certain kinds of offensive official action on the grounds of judicial integrity. In this
way, judges act as a beacon or a symbol to society for ensuring lawful acts by the
forces of government. Thus, a court is wise to be cognizant of how its actions will
affect the public perception of the judicial system. A court may not sanction or
participate in illegal or unfair acts. There are two underlying goals of judicial
integrity. First, on a public relations level, the court wishes to be regarded as a
symbol of lawfulness and justice. Second, the court has the closely related concern of
not appearing to be allied with bad acts. See, e.g., Olmstead v. United States, 277
U.S. 438, 483-85 (1928) (Brandeis, J., dissenting); United States v. Calandra, 414
U.S. 338, 357-60 (1973) (Brennan, J., dissenting). Brandeis' major concern was not
the right of the individual defendants; rather, he stressed the symbolic protection of
the entire government through preservation of "the purity of its courts.'" Casey v.
United States, 276 U.S. 413, 425 (1928) (Brandeis, J., dissenting); see also
Olmstead, 277 U.S. at 471-85 (Brandeis, J., dissenting).
Certainly, a panel with three judges cloaked in secrecy, that creates a record
from nonexistent facts, is not constitutional.

THE MODEL CODE OF JUDICIAL CONDUCT
The Code of Judicial Conduct states that a judge should be faithful to the law
and maintain professional competence in it. Accordingly, flagrant legal error,
legal error motivated by bad faith, or a continuous pattern of legal error will
be considered to violate the Code of Judicial Conduct. Otherwise, though, legal
error will be dealt with through the appellate process, so as to maintain judicial
independence. Independence, Impartiality, and Integrity By Jeffrey M. Sharman
Inter-American Development Bank Washington, D.C. Sustainable Development
Department State, Governance and Civil Society Division Judicial Reform
Roundtable II May 19-22, 1996.
2

STATEMENT OF THE CASE
Pastor Mario Sims is a black, Honorably discharged, United States Marine
Corps veteran who obtained a Veteran Administration certificate approving VA
financing for a home he and his wife desired to purchase in 2008.
He has also been an outspoken civil rights activist since 1988.
As a result of his activism, in 1994, he was wrongly convicted and imprisoned
for 12 and one half years.
While in prison he used the courts to attack that conviction.1
Pastor Sims and his wife had signed a three year land contract for the home
in 2008, allowing time to determine if there were any problems with the home and
to complete the mortgage process.
Pastor Sims had put down $12,000.00 cash in November of 2008 and made
monthly timely payment of $1,400.00 a month beginning in December 2008, totaling
$26,000.00, until it was determined in December 2009, the home’s seller, a white
real estate agent, had not used the money to pay his bank, Bank of New York, that
held his mortgage.
Since January of 2010, Pastor Sims and his wife have attempted to complete
the purchase of the home using his VA guarantee, but because of racism by the
Bank of New York, the servicer, Shellpoint, their employees and agents were
3
1

A suit seeking damages for his wrongful conviction is proceeding in the St. Joseph County (Indianal-Superior.
CmmrCause 7TD06L2001“(_. i-UU024, filed after the investigating office admitted to planting evidence to a
mainstream media reporter in 2019.

prevented from doing so from 2010 until the present.
To stave of sheriff sale, Pastor Sims filed Chapter 13 in 2018.
After his appeal to the Northern District Court of Indiana was denied, he
appealed to the U.S. Court of Appeals for the 7th Circuit.
In his opening brief, Pastor Sims argued that racism was behind his inability
to buy the home and pointed that the bank and Shellpoint attorneys, all of whom
were white, arguing before all white courts, used a dog whistle to incite the white
courts by pointing out Pastor Sims has used the “race card” and played to racial
stereotypes portraying Pastor Sims as an angry loud black man that had lived in
the “house free.”
That court issued an Opinion written anonymously on April 28th

that

falsely claimed Pastor Sims “plotted with” ( without any factual basis) the white
real estate agent, John Tiffany, that had actually stolen Pastor Sims money, even
though the record shows Pastor Sims requested an investigation into that
misappropriation, and Mr. Tiffany, the Indiana license Realtor, was sanctioned by
the Indiana Attorney General.
The record also show Pastor Sims not only had applied for a VA loan which
neither the Bank of New York nor the servicer responded with the paperwork
needed to complete the purchase, he had offered cash to purchase the house.

4

The Opinion claimed falsely with no evidence on the record before the panel
that Pastor Sims “lacked funds to pay the mortgage anyway”, when in fact he had
made cash offers to purchase the home that were on the record and rejected, and
ignored that in 2013 Pastor Sims and his wife bought and paid off a 50,000 square
foot church on the historic registry in South Bend, Indiana.
April 28, Opinion ignored that the Bankruptcy Court Judge had only recused
himself after he ignored Pastor Sims' factually unchallenged motion for recusal, and
made rulings, then sua sponte recused himself.
The April 28, Opinion claimed Mr. Sims filed almost 200 legal cased, while
not naming one that was ever determined to he frivolous, failed to acknowledge that
Mr. Sims has fought what he believes is his wrongful conviction only since 1994
availing himself of the Courts as allowed by the United States Constitution, to
challenge his wrongful conviction, there has never been a ruling by any court on the
merits of the underlying facts of his wrongful conviction, and now punishing him for
doing so by calling his efforts “frivolous” with not one Order supporting that finding
cited.
The anonymous panel ignored the record for review showing that the
Bankruptcy Court had stayed discovery and denied his motions for discovery in July
of 2019, falsely claiming, contrary to the record for review Pastor Sims had a year to
conduct discovery before the trial in January of 2020, Finally, the April 28 the
5

anonymous panel Opinion chills the valid exercise of the constitutional rights of free
dom of speech and petition for the redress of grievances because Pastor Sims quoted,
not his opinion, but the opinions of other judges and journalists regarding the fact
that the 7th Circuit and the Northern District of Indiana has no jurist of color,
giving the appearance of racism. An appearance recently confirmed by the April 27,
2021, letter by The Leadership Conference on Civil and Human Rights, stating as
follows:
Dear Senator,
On behalf of The Leadership Conference on Civil and Human Rights, a coalition of
more than 220 national organizations committed to promoting and protecting the
civil and human rights of all persons in the United States, we write to express our
strong support for the confirmation of Candace Jackson-Akiwumi to the U.S. Court
of Appeals for the Seventh Circuit. Ms. Jackson-Akiwumi is highly qualified and
has an exemplary record of defending and protecting the rights of all people. She is
currently in private practice, though she spent most of her legal career as a public
defender. For 10 years, Ms. Jackson-Akiwumi served as a staff attorney for the
Federal Defender Program for the Northern District of Illinois, Inc., representing
more than 400 clients who could not afford counsel. She has clerked for Judge David
Coar of the U.S. District Court for the Northern District of Illinois and Judge Roger
Gregory of the U.S. Court of Appeals for the Fourth Circuit. She is a graduate of
Yale Law School and Princeton University. Ms. Jackson-Akiwumi is also an
involved member of her community, as demonstrated by her service on the boards of
the Federal Bar Association, the Black Women Lawyers’ Association of Greater
Chicago, and the Just the Beginning Foundation. She has a demonstrated
commitment to upholding civil and human rights, and her experience at all levels of
the federal court system qualifies her to fill this seat on the Seventh Circuit.
Ms. Jackson-Akiwumi has demonstrated her commitment to civil and human rights
throughout her career. As a law student, she helped plan a conference at Yale Law
School called “The Legacy of Brown v. Board of Education: Reflections on the Last
Fifty Years.” Ten years later, she reflected further on this landmark civil rights
case, writing, “we must continue to fight for equal opportunity with an energy that
should match those who fought for civil rights fifty and sixty years ago.” Indeed, she
has dedicated her career to pursuing equal justice. If confirmed, Ms. Jackson
6

Akiwumi would be the first Seventh Circuit judge who spent most of their career as
a public defender. Federal public defenders play a critical role in our criminal-legal
system yet are underrepresented on the federal bench. For every former public
defender on the federal bench, there are at least four former prosecutors.
Overall, just more than 2 percent of all federal appellate judges have
experience as a public defender. Our judiciary needs to reflect the diversity of the
legal profession, including more judges experienced in ensuring that defendants
have counsel and that their rights are recognized in federal court.
Ms. Jackson-Akiwumi’s experience would bring significant value to the Seventh
Circuit. Public defenders play a meaningful role in our legal system by helping their
clients navigate the complexities of federal law and ensuring their access to justice.
Ms. Jackson-Akiwumi said of her work at the Federal Defender Program: “I
am a counselor, helping clients to navigate difficult choices,” and “I am an
investigator: hunting down facts and evidence... I am a teacher, introducing clients
and their families to the federal court system... I am a lay social worker: many of
our clients have disadvantaged backgrounds, extensive mental health histories,
substance abuse issues, and other everyday challenges.” This work has been
meaningful to her — as she herself explained: “Representing clients and
safeguarding the Sixth Amendment and Fourth Amendment is incredibly
rewarding and meaningful and important work... I cherish the ability to walk client
s through what were some of the most harrowing days of their life, when they were
being judged for some of their worst days.” During her time as a public defender, M
s. Jackson-Akiwumi demonstrated a deep commitment to upholding the rights of co
mmunities that have been marginalized by the criminal-legal system, including
Black and Brown communities. She successfully argued that robbeiy stings ran by
the U.S. Bureau of Alcohol, Tobacco, Firearms, and Explosives (ATF) were unfairly
targeting people by their race. During a nearly two year period, 26 people in the
Chicago area had been incarcerated as a result of the ATF stings, and all of them
were either Black or Hispanic. A court later found that there was a “strong showing
of potential bias” in the stings.This order, and the arguments advanced by
Ms. Jackson-Akiwumi, illuminated the discriminatory practice of selective
prosecution of people by their race. She has used this experience to train other
defense lawyers on how to spot racial bias in proceedings. Her experience as a
public defender would bring a much-needed perspective to the currently all-white
Seventh Circuit created by the previous administration. In addition to the
professional experience Ms. Jackson-Akiwumi would bring to the bench, it is
notable that if confirmed she would be the only judge of color on the Seventh Circuit
and would be only the second judge of color to ever serve on that court. She would
also be the first Black woman to be confirmed to a federal appellate court in nearly
10 years.
1

In 2016, President Obama nominated Myra Selby, the first woman and first Black
justice on the Indiana Supreme Court, to serve on the Seventh Circuit.
Unfortunately, her nomination expired, and the Seventh Circuit has had an
all-white bench since 2017. More than 7.5 million people of color reside within the
court’s jurisdiction, including 2.8 million ” Black residents, 3.1 million Latino reside
nts, and 1 million Asian American residents. It is shameful that any 21st-century
federal court has an entirely White bench. Our courts depend upon the public’s
trust for legitimacy, and it is vital that decision-makers share characteristics with
the people their decisions impact — especially for those who are a party to a case.
Diversity helps improve decision-making and ensures that judicial rulings reflect a
broad set of viewpoints, particularly from perspectives that have historically been
left out of the federal judiciary — including Black, Brown, and Asian American and
Pacific Islander individuals, women, LGBTQ people, and people with disabilities.
The nomination of the eminently qualified Ms. Jackson-Akiwumi is a step towards
ensuring that our federal judiciary reflects the rich diversity of our nation.
Throughout her career, Ms. Jackson-Akiwumi has proven to be an
experienced, dedicated defender of the rights of all people. She has demonstrated a
commitment to upholding constitutional and legal rights and protections for
defendants that is needed on the federal bench. We strongly urge the Senate to
confirm Candace Jackson-Akiwumi to the Seventh Circuit. If you have any question
s or would like to discuss this matter further, please contact Lena Zwarensteyn,
Senior Director of the Fair Courts Campaign, at (202) 466-3311. Thank you for your
consideration.
Sincerely
Wade Henderson, Interim President & CEO Executive
LaShawn Warren, Vice President of Government Affairs
“ Jackson-Akiwumi would be rare judge who was a public defender highlighted at
her Senate confirmation hearing”
That the Chicago-based federal appeals court is all-white was spotlighted at
Jackson-Akiwumi’s Senate Judiciary Committee confirmation hearing.
By Lynn Sweet Apr 28, 2021, 8:06pm CDT
WASHINGTON — The Wednesday confirmation hearing for Candace Rae JacksonAkiwumi, nominated by President Joe Biden to sit on the 7th Circuit Court of
Appeals, threw a spotlight on the fact that the Chicago-based panel is all white and
the lack of Black women and criminal defense attorneys in the federal judiciary.
Sen. Richard Blumenthal, D-Conn., highlighted the absence of diversity on the 7th,
which handles cases from Illinois, Indiana and Wisconsin._____________
8

The 7th, said Blumenthal, “presides over 7.5 million people of color, and its
jurisdiction includes Chicago, Milwaukee and Indianapolis among other cities, yet
all of the judges currently sitting on the court are white in 2021. “I am dumbstruck.
It’s breathtaking that a federal circuit court in any part of our countiy is all white,”
Blumenthal said. If confirmed, Jackson-Akiwumi will be the very rare judge who
brings the perspective of a public defender to the bench and one of only a few Black
womenever on federal appeals courts. It’s believed that in the history of the U.S.,
there have been only eight Black female appeals judges. A partner in a D.C. law
firm since last year, Jackson-Akiwumi spent a formative 10 years, between 2010
and 2020, as a staff attorney at the Federal Defender Program for the Northern
District of Illinois. If confirmed, as expected — Senate Judiciary Committee Chair
Dick Durbin recruited her for the position — she will mark two milestones: Jackson
-Akiwumi will be only the second Black woman ever on the 7th Circuit and will be
the only person of color on the 11-member Chicago appeals court. Jackson-Akiwumi
and U.S. District Court Judge Ketanji Brown Jackson, Biden’s pick to replace
Attorney General Merrick Garland on the appeals court in Washington — and
mentioned as a prospect for a Supreme Court vacancy — were among five of Biden’s
court picks before the Senate Judiciary Committee on Wednesday. They are both
former public defenders. Durbin called it a “historic day” because the Biden slate of
nominees were all people of color and also represented “demographic and
professional diversity.” Former President Donald Trump, Durbin noted, did not
nominate any Black appeals court judges among the 54 he tapped in his four years.
Durbin also pointed out how — and this is my word — Republicans stole a seat on
the 7th Circuit after a Black female judge was nominated for it in order to keep it
open for a GOP president to fill. Ex-President Barack Obama nominated
Myra Consetta Selby to the 7th Circuit on Jan. 12, 2016 — with almost a year left
to his term. Selby, the first Black associate justice on the Indiana Supreme Court,
would have been, if confirmed, the second Black woman on the 7th, with retired
Judge Ann Williams the first and, so far, only.Republicans, who then controlled the
Senate, never gave Selby a hearing, and her nomination expired when Obama left of
fice. It’s the same scheme the GOP- run Senate used to block Obama’s nomination
of Garland for the Supreme Court in order to keep the seat open for a Republican
nominee.Trump filled the spot — with Amy Coney Barrett, who went on to become
his third Supreme Court pick.
Jackson-Akiwumi and Jackson are among those in Biden’s first wave of 11
judicial nominations, where he made good on a promise to diversify the white, maledominated federal bench as well as to draw on lawyers with different backgrounds.
Jackson-Akiwumi, a graduate of Princeton and Yale law school, was asked during
the hearing about the role of race in judicial decisions. “I don’t believe race will play

9

a role in the type ofjudge that I would be if confirmed,” she said. “I do believe that
demographic diversity of all types, even beyond race, plays an important role in
increasing public confidence in our courts and increases the public’s ability to
accept the legitimacy of court decisions. “It’s very akin to the way in which we
guarantee a jury of one’s peers.” She also said that “demographic diversity of all
types” creates role models for “anyone aspiring to public service.” In her Senate
Judiciary Committee questionnaire, Jackson-Akiwumi revealed how her nomination
was in the works even before Biden was president. She said Durbin’s staff reached
out to her about the 7th Circuit vacancy last Dec. 30, a few weeks before Biden was
swom-in. After preliminary interviews, she wrote, “On March 4, 2021,1 met with
President Biden and White House Counsel Dana Remus at the White House
concerning the nomination. On March 30, 2021, the President announced his intent
to nominate me.”
Pastor Sims' use of the of opinion ofelected officials, journalists and civil
rights organizations that the 7th Circuit Court and the Northern Indiana District
Court lacks jurists of color which could impact its treatment of people of color,
coupled with his filing a uncontroverted motion to recuse based on his verified
motion that the bankruptcy judge was biased, incurred the wrath of the panel.
Then to punish Pastor Sims, for citing articles written by mainstream media report
ers and civil rights organizations, the anonymous panel sanctioned him, ordering
him to pay $13,450.20 as a fine. A civil suit, which began as a adversary proceeding
in Pastor Sims’ Chapter 13, but by agreement of the parties is before the St. Joseph
County Indiana Superior Court Cause Number 71D07-1902-CT-000063, Mario L. Si
ms, Plaintiff, vs. Attorney David M. Bengs, Shellpoint New Penn Financial, Attome
y Jeffrey J. Hannekan, The Bank ofNew York, seeking damages for violations of 42
U.S.C. §§ 1985(3) and 42 U.S.C. 1986 in the matter of the home Pastor Sims and his
wife are still trying to buy, 11 years later.
10

Record citations above are to the record filed in the Seventh Circuit Court.

I.
This is of exceptional importance as the April 28th anonymous panel decision
to uphold the District Court, by creating facts and evidence, that does not exist and
the decision of the 14 judges that refused to grant rehearing enbanc, are in conflict
with the First Amendment to the United States Constitution which guarantees a
cherished freedom—the right to speak openly and freely. (U.S. Const., 1st Amend.
["Congress shall make no law... abridging the freedom of speech...*1.)
The April 28, Opinion is in conflict with U.S. Const., 1st Amend., and this
court.

II.
The Model Code of Judicial Conduct requires this Court to intervene to
perserve both the integrity and the public perception of the judicial system.
This Court must take a stand to show in America we cannot allow a panel of
judges to use a hood of anonimity over their faces while using creating non existing
facts and evidence to rule against and sanction a citizen because he used articles
showing a lack of minority representation on the bench exists in Indiana, in
retaliation.
In this case the Seventh Circuit was focused on retaliating against Pastor
Sims that it wholely failed to address the District Court’s errors which included
misconduct by the Banks attomies and agents who interfered with a investigation
of the Indiana Attorney General. “A court may not sanction or participate in illegal
or unfair acts. There are two underlying goals of judicial integrity. First, on a public
4

*

relations level, the court wishes to be regarded as a symbol of lawfulness and
11

justice. Second, the court has the closely related concern of not appearing to be
allied with bad acts. “See, e.g., Olmstead v. United States, 277 U.S. 438, 483-85
(1928) (Brandeis, J., dissenting)
-*

The District Court’s ruling allowed due process violations to stand unadressed and
the Bank as appellees and its agents and attomies to get away with interfering
with an investigation conducted by the Indiana Attorney General, engage in
identity theft and simply lied to the courts, all at set out in Pastor Sims all as
shown below as taken from Pastor Sims’; “BRIEF, REQUIRED APPENDIX, AND
SHORT APPENDIX OF APPELLANT” filed in the Seventh Circuit ”
Statement of the Issues
Whether the bankruptcy court denied Mr. Sims due process by holding
a hearing without notice to him;
Whether the bankruptcy court erred when it failed to recuse after Mr. Sims
filed his verified motion;
Whether the bankruptcy court erred when it failed to acknowledge the
misconduct by the bank and its agents;
Whether the bankruptcy court erred when it denied Mr. Sims' motion
to continue the trial;
Whether the bankruptcy court erred by granting The Bank of New
York Mellon's motion for relief from stay and abandonment
Summary of the Argument
The bankruptcy court erred by failing to follow well settled case
law, statutes and the U.S. Constitution of America
Argument
I. Whether the bankruptcy court denied Mr. Sims due process by
holding a hearing without notice to him;
“An elementary and fundamental requirement of due process in any
proceeding which is to be accorded finality is notice reasonably calculated, under
12

all the circumstances, to apprise interested parties of the pendency of the action
and afford them an opportunity to present their objections.” Mullane v. Central
Hanover Bank & Trust Co., 339 U.S. 306, 314 (1950). See also Richards v. Jefferson
•*

County, 517 U.S. 793 (1996) (res judicata may not apply where taxpayer who
challenged a county’s occupation tax was not informed of prior case and where
taxpayer interests were not adequately protected). Service of the notice must be
reasonably structured to assure that the person to whom it is directed receives it.
Carey v. Piphus, 435 U.S. 247, 259 (1978). “ [Procedural due process rules are
shaped by the risk of error inherent in the truth-finding process as applied to the
generality of cases.” Mathews v. Eldridge, 424 U.S. 319, 344 (1976). Mathews v.
Eldridge, 424 U.S. 319, 333 (1976). “Parties whose rights are to be affected are
entitled to be heard.” Baldwin v. Hale, 68 U.S. (1 Wall.) 223, 233 (1863). Notice of
hearing and the opportunity to be heard “must be granted at a meaningful time and
in a meaningful manner.” Armstrong v. Manzo, 380 U.S. 545, 552 (1965). Here,
Mr. Sims, was given no notice before denial of his claim on his property was made.
EL
The bankruptcy court erred when after Mr. Sims filed
a verified motion to recuse in both the adversary case and the chapter 13 it
continued to preside over both, never acknowledging or ruling on his motion,
denying the claim Mr. Sims filed on the bank's behalf, only after sua sponte
recusing on its own motion
Judge Dees did not deny categorically deny all the allegations made in
Mr. Sims' Verified Motion to Recuse filed January 21, 2019, in both the bankruptcy
13

and adversary case that a reasonable person might find an appearance of partiality.
When Judge Dees failed to recuse himself from a case in violation of Sec 455,
any decision he makes is void and of no legal force and effect. Section 144 reads in it
w •

s entirety: “Whenever a party to any proceeding in a district court makes and
files a timely and sufficient affidavit that the judge before whom the matter is
pending has a personal bias or prejudice either against him or in favor of any
adverse party, such judge shall proceed no further therein, hut another judge shall
be assigned to hear such proceeding. Section 144 of the Judicial Code, 28 U.S.C. Sec.
144, requires a judge to recuse himself if a party files a timely and sufficient
affidavit that the judge has "a personal bias or prejudice" against him. The law is
clear that in passing on the legal sufficiency of the affidavit, the judge must assume
that the factual averments it contains are true, even if he knows them to be false.
E.g., United States v. Jeffers, 532 F.2d 1101, 1112 (7th Cir.1976), affdinpart and
vacated in part, 432 U.S. 137, 97 S.Ct. 2207, 53 L.Ed.2d 168 (1977). An affidavit is
sufficient if it avers facts that, if true, would convince a reasonable person that
bias exists. United States v. Baskes, 687 F.2d 165, 170 (7th Cir.1981) {per curiam).
The factual averments must give fair support to the charge of a bent of mind that
may prevent or impede impartiality of judgment. Berger v. United States, 255 U.S.
22, 33-34, 41 S.Ct. 230, 233, 65 L.Ed. 481 (1921).
14

Section 455(a) "requires a judge to recuse himself in any proceeding in which
her impartiality might reasonably be questioned." Taylor v. O'Grady, 888 F.2d 1189
(7th Cir. 1989). In Pfizer Inc. v. Lord, 456 F.2d 532 (8th Cir. 1972), the Court
M•

stated that "It is important that the litigant not only actually receive justice, but
that he believes that he has received justice." The Supreme Court has ruled and has
reaffirmed the principle that "justice must satisfy the appearance of justice", Levine
v. United States, 362 U.S. 610, 80 S.Ct. 1038 (1960), citing Offutt v. United States,
348 U.S. 11,14, 75 S.Ct. 11, 13 (1954). "Recusal under Section 455 is self-executing;
a party need not file affidavits in support of recusal and the judge is obligated to
recuse herself sua sponte under the stated circumstances. " Taylor v. O'Grady, 888
F.2d 1189 (7th Cir. 1989). Here, only after presiding over a hearing Mr. Sims was
not present and then ruling against him, did he recuse sua sponte.
The subsequent legal actions that occurred involving misconduct of the
Bank and its Attorney are rendered null and void by virtue of the Sec 455 violations
in this case and therefore the grant of the banks' motion for relief from stay was
improper. Should a judge not disqualify himself, then the judge is violation of the
Due Process Clause of the U.S. Constitution. United States v. Sciuto, 521 F.2d 842,
845 (7th Cir. 1996) ("The right to a tribunal free from bias or prejudice is based,
not on section 144, but on the Due Process Clause.").

15

The Supreme Court has also held that if a judge wars against the
Constitution, or if he acts without jurisdiction, he has engaged in treason to the
Constitution. If a judge acts after he has been automatically disqualified by law,
then he is acting without jurisdiction, and that suggest that he is then engaging in
criminal acts of treason, and may he engaged in extortion and the interference with
interstate commerce.
IIL The bankruptcy court erred when it denied Mr. Sims any
discovery after ordering on November 19,2019, only two witnesses would he
heard at trial January 23,2020 scheduled on the hank's motion to lift stay,
but allowed a witness other than the two to testify, without benefit of a
witness list and denied Mr. Sims' motion to continue to allow him to prepare
for the third witness and to allow Mr. Sims' witness to appear
Due process requires an opportunity for confrontation and cross-examination,
and for discovery. Broad procedural rights to discovery were created
by the Federal Rules of Civil Procedure. The bankruptcy court litigation involves
extensive procedural rights granted by court rules, permitting broad discovery and
extensive motion practice. Carey v. Piphus, 435 U.S. 247, 266-67 (1978).
By denying Mr. Sims any discovery and his witness, due process was denied
at the trial. The Order of the bankruptcy court granting the hank's motion for
relief from stay was improper. Further there is no way a trial can proceed because
of the Bank through counsel thwarting discovery it is motion for a protective order
that was granted by the bankruptcy court i.e., the bank and its counsel's Attorney
a

16

Bengs’ refusal to participate in discovery. “There was no way that this Court could
have tried this case . . .” Levy v. Golant (In re Golant), No. 96 B 007376, slip op. at
7 (Bankr. N.D. Ill. Sept. 8, 1998).
u•

IV. The bankruptcy court erred when it granted the hank's motion to
lift stay and abandoned the property and;
V.
The bankruptcy court erred when it failed to consider the misconduct
of the Bank's agent, Attorney David Bengs, making false
representations to the bankruptcy court on February 7,2019 during a
hearing and issues raised in the adversary complaint pending in state court
after removal that showed the misconduct of the bank and its agents and
attorney's to have obtained the foreclosure judgment
The value of the Bank's interest was not declining in value. Debtor's exhibit 2,
a letter from the bank's servicer, entered at trial shows when Mr. Sims had
attempted to assume the mortgage the balance was $126, 257.96. Debtor's exhibit 3
entered at trial shows the Bank offering to accept a settlement of $198,000.00, an
increase of $71,000. Adequate protection is intended only to assure that a secured
creditor, during the pendency of the bankruptcy case does not suffer a lose of value
of its interest in the property of the estate. In re Markus Gurnee P'ship, 252 B.R. 71
2,716 Bankr.N.D Ill. 1997(citing United Sav. Ass'nv. Timbers ofInwood Forest Ass
ocs., Ltd., 484 U.S. 365 (1988). An under secured creditor does not lack adequate

17

protection merely by reason of being under secured or by reason of not receiving
post-petition interest. United Sav. Ass'n of Texas v. Timbers ofInwood Forest
Assocs., Ltd., 484 U.S. 365 (1988).
w*

..v
»*

Further, the issues of the misconduct of the bank and unclean hands of its
agent during the bankruptcy proceeding, as shown in Debtor's exhibit 1, were
excluded from the trial and therefore still need to be decided by the remanded
adversary case. Only after a initial showing which was not made at trial that the
Bank was not adequately protected would the burden shift. Finally, the filing of a
bankruptcy petition creates an estate, which includes assets owned by the debtor.
In this case it is undisputed that Mr. Sims by virtue of the land contract has owners
hip and legal and equitable interest in the property and its is a necessary part of
the bankruptcy. Bankruptcy Code § 541(a)(1). The issue of Mr. Sims equity in the
property, as shown in Debtor's exhibit 1, the verified complaint from the adversary
proceeding were excluded from the trial and therefore still need to be decided.
See TTS, Inc. v. Stackfleth {Matter of Total Tech. Servs.Inc.), 142 B.R. 96, 99 (Bank
r.D. Del. 1992) (“A proceeding is ' related' if the out come of that proceeding could
conceivably have any effect on the estate being administered in bankruptcy.”
Finally, Mr. Sims had filed a claim with the bankruptcy court after the
mortgage company failed to do so that if not denied by the disqualified judge, would

-\s

*.

had secured his home at amount of $43,620.00, as the bank failed to appeal
18

the confirmation of Mr. Sims' chapter 13 plan. See In re Shank, 569 B.R. 238 (Bank.
S.D. Tex. 2017).
Because above acts of the 7th Circuit Court of Appeals, are in conflict with
the U.S. Constitutions First Amendment, and the Model Code of Judicial Conduct,
r

this Court’s review is required.

CONCLUSION
Pastor Mario Sims, respectfully requests that this Court issue a writ of
certiorari.

Respectfully s

Pastor
23778/^roW,Street
South Berm, Indiana 46628
'Mephmhi: (574) 298-0110
E-maiPmariolsims@gmail.com

19
fc.

